           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   The Social Security Administration’s
 Oversight of the Dell Workstation Blanket
      Purchase Agreements under the
 General Services Administration’s Schedule
          Contract GS-35-F-4076D

  September 2006        A-15-06-16073




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   September 25, 2006                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Oversight of the Dell Workstation Blanket Purchase
        Agreements under the General Services Administration’s Schedule Contract
        GS-35-F-4076D (A-15-06-16073)


        OBJECTIVE

        Our objective was to assess the Social Security Administration’s (SSA) oversight of
        three Blanket Purchase Agreements (BPA)1 issued under the General Services
        Administration’s (GSA) Multiple Award Schedule Contract GS-35-F-4076D to acquire
        Dell workstations, peripheral equipment, and installation and support services.
        Specifically, we determined whether the goods and services were delivered timely,
        within specifications and at the agreed to price.

        BACKGROUND

        Each year, Federal agencies spend billions of dollars to buy commercial products and
        services through the GSA Multiple Award Schedules Program.2 Agencies may establish
        BPAs under GSA Schedule Contracts to fill recurring needs for supplies and services,
        while leveraging its buying power by taking advantage of quantity discounts, saving
        administrative time, and reducing paperwork. Federal agencies can directly purchase,
        through more than 16,000 Schedule Contracts, over 8 million products from more than
        10,000 commercial vendors. In Fiscal Year (FY) 2004, purchases from these contracts
        totaled more than $32 billion dollars. For FY 2005, SSA issued a total of 2,621 awards
        against the GSA Schedule Contract Program at a cost close to $430 million.




        1
         Under 48 C.F.R §13.303-1(a), a BPA is a simplified method of filling anticipated repetitive needs for
        supplies or services by establishing "charge accounts" with qualified sources of supply.
        2
          Under the GSA Multiple Award Schedules (also referred to as Multiple Award Schedules and Federal
        Supply Schedules) Program, GSA establishes long-term government-wide contracts with commercial
        firms to provide access to over 10 million commercial supplies and services that can be ordered directly
        from GSA Schedule Contractors.
Page 2 - The Commissioner
SSA’s Office of Acquisition and Grants’ (OAG) mission is to acquire quality products at
a reasonable price that fully meets the needs of the user. In FY 2001, OAG used the
GSA Schedule Awards Contract GS-35-F-4076D to establish the first of three BPAs
(BPAs were established in FY 2001, 2002 and 2004) to acquire Dell workstations,
peripheral equipment, and installation and support services at a cost of approximately
$79 million dollars. These BPAs included specifications, general requirements, unit
pricing, and installation and support services agreed upon by SSA and the Dell
Computer Corporation.

The Director of SSA’s Office of Telecommunications and Systems Operations (OTSO),
Distributed Data Processing Management Staff (DDPMS)3 assigned the Project Officers
(PO) and Alternate Project Officers (APO) for the three Dell BPAs. The PO served as
the Contracting Officer’s Technical Representative for SSA’s ongoing workstation
replacement efforts. The PO provided technical knowledge, which included
development of a Statement of Work, and/or specifications, evaluation of vendor
proposals, assistance in vendor negotiations, and recommendation for vendor selection.

After the PO’s appointment, the Contracting Officer (CO) issued official designation
letters to both the PO and APO. These letters defined the PO’s role and
responsibilities, contained delegated authorities and limitations, provided guidance for
post-award contract administration4 and required a contractor performance evaluation.
Each contract or BPA must be planned and monitored by both a CO and PO to ensure
the Government receives fair value for its money. The CO and PO had separate yet
similar responsibilities during the pre- and post-award contract administration (see
Appendix C).

RESULTS OF REVIEW
Generally, SSA provided adequate oversight of the three Dell BPAs issued under the
General Services Administration’s Multiple Award Schedule Contract GS-35-F-4076D.
However, there are opportunities for SSA to improve its oversight to help ensure
contracted goods are received and reconciled to the Agency’s accounting records.

OPPORTUNITIES TO IMPROVE SSA’S OVERSIGHT OF DELIVERY OF IT
EQUIPMENT

Federal agencies use management controls to ensure reliable and timely information is
obtained, maintained, reported and used in decision-making. According to guidance
issued by the Office of Management and Budget:
        The proper stewardship of Federal resources is a fundamental responsibility of
        agency managers and staff. Federal employees must ensure that government

3
 The DDPMS initiates major program, subprogram, project, and task activities in support of the
implementation of plans outlined in the Integrated Systems Plan and the Agency’s Strategic Plan.
4
 The U.S. Department of Health and Human Services, DHHS Project Officers’ Contracting Handbook
(Handbook), Section V, Post-Award Administration, revised January 23, 2003.
Page 3 - The Commissioner
          resources are used efficiently and effectively to achieve intended program
          results. Resources must be used consistent with agency mission, in compliance
          with law and regulation, and with minimal potential for waste, fraud, and
          mismanagement.5

                               We could not determine whether Dell workstations
    Insufficient Documentation
                               ordered under the three BPAs were received at SSA’s
    to Support Workstations
                               field locations. The PO was delegated certain authorities
    Received at SSA Field      and responsibilities to oversee the Dell workstation
    Locations                  acquisition. These responsibilities included:
                               1) establishing quality assurance standards and delivery
requirements and ensuring that these were met, 2) receiving all required reports,
samples, and such other materials called for in the BPA, and 3) adhering to the
Handbook.

The CO placed call orders6 against the BPAs. In turn, Dell contracted with a shipping
company to “drop ship”7 the workstations to various sites located in SSA’s 10 regions.8
The PO relied on daily status reports provided by Dell and the shipping company to
determine whether workstations were delivered. The BPA required Dell to submit
monthly inventory reports for the workstations drop shipped to SSA sites. The PO
compared these inventory reports to the call orders to determine whether the correct
quantity of workstations were delivered and received.

During our review, we determined that field locations were not required to notify or
confirm with the PO the receipt of workstations or maintain delivery receipts. For
example, one SSA field location sent us a copy of a delivery receipt, but the receipt did
not contain sufficient information such as signatures and dates to verify whether the Dell
workstations were received by this field location.9




5
 Office of Management and Budget Circular A-123, Management Accountability and Control, dated
June 21, 1995.
6
  An “order” against a BPA is generally referred to as a “call” however some people may use the term
“call order.”
7
 “Drop Ship” - equipment delivered to site, unboxed and trash removed by delivery company if site
desires.
8
 The Regions are: Boston, New York, Philadelphia, Atlanta, Chicago, Dallas, Kansas City, Denver,
San Francisco and Seattle.
9
    Northeastern Program Service Center.
Page 4 - The Commissioner
SSA policy10 does not specifically address the shipping and receiving of Information
Technology (IT) equipment at Headquarters (HQ), regions or field offices. However, the
policy does address the shipping and receiving of forms, supplies, furniture and office
equipment.11 This policy states:

          Problems relating to the shipping and receiving process have generally been
          experienced by field offices and include such areas as the preparation and
          recognition of documents and paperwork related to receiving, checking
          shipments, services from motor carriers, security of sensitive items and
          processing loss and damage reports. A basic understanding of the
          shipping/receiving process may assist field office personnel in dealing with these
          issues.…12

We noted some of these problems existed for the shipping and receiving of IT
equipment. For example, field locations we contacted stated documents and paperwork
related to receiving and checking shipments of delivered Dell Workstations were not
maintained.13 We believe the establishment of written policies and procedures will help
ensure consistent and accurate compliance and application needed to achieve high
levels of integrity and accuracy and to ensure assets are safeguarded against waste,
loss, unauthorized use, and misappropriation.

We contacted Office of Publications and Logistics Management (OPLM) staff14 to
discuss SSA’s policies and procedures for the shipping and receiving of Dell
workstations. OPLM staff stated that although SSA policy does not address shipping
and receiving of IT equipment such as workstations, practices15 were in place at HQ to
ensure these contracted goods were delivered. We tested and verified these practices.
As a result, we determined the HQ practices ensure IT equipment ordered was received
and checked for accuracy and completeness. Additionally, OPLM staff stated that the
Agency’s Shipping and Receiving policies and procedures will be updated to include IT
equipment.

10
 Administrative Instructions Manual System (AIMS), Materiel Resources Manual (MRM), 04. Property
Management (PM), Instruction 20, Shipping and Receiving, February 20, 1986.
11
  This includes: office equipment such as adding machines, calculators, duplicators, dictating machines,
microfilm, typewriters, tape recorders, projectors and date stamps.
12
  AIMS, MRM, Chapter 04. PM, Instruction No. 20, Shipping and Receiving, Field Offices A. Documents
and Paperwork dated 1986.
13
  Field locations contacted included: Boston, California, New York and Philadelphia Regional Offices,
Philadelphia Telecommunications Service Center, Northeastern Program Service Center, and Virginia
Disability Determination Services.
14
     Center for Warehouse and Logistics Services, Office of Publications and Logistics Management.
15
  The HQ practices included: 1) obtained a shipping receipt (shipping receipt generally did not indicate
the contents, rather the receipt specified the quantity of boxes/cartons delivered); 2) conducted a joint
inventory (truck driver and SSA personnel) of the quantity of boxes; 3) contacted the component point-of-
contact for instructions; 4) prepared an SSA Form 23-delivery receipt; 5) obtained the components
signature; and 6) maintained a file copy of the receipt for 3 years.
Page 5 - The Commissioner
As of September 2005, the Dell BPA reached both its estimated quantities and dollar
limit.16 Therefore, the Agency established a new BPA with Hewlett-Packard. New
procedures implemented for the Hewlett Packard BPA are posted on OTSO’s website.17
In addition, OTSO’s Centralized Customer Services Branch18 continues to act as a
point-of-contact by recording and tracking delivery problems. Although OTSO has
implemented some new procedures, these procedures do not address or include a
procedure to document the receipt of IT equipment such as workstations received in
field locations.

 Inventory not Taken          SSA field locations did not verify inventories when Dell
 When Dell Workstations       workstations were received. SSA’s policy states:19
 Received at SSA Field        “…accountable and capitalized equipment, including IT
 Locations                    equipment and items defined as sensitive by SSA will be
                              inventoried…on a rotating basis.20 During each quarter, a
portion of field and headquarters components will be inventoried. In the course of
1 calendar year, one-third of all SSA components will have been inventoried. Thus, at
the completion of three consecutive years, all SSA property will be inventoried.”

We determined that Dell provided SSA with monthly electronic inventory files. These
files were provided to the PO, OTSO staff, and to the Office of the Deputy
Commissioner for Budget, Finance and Management (formerly the Office of Deputy
Commissioner for Finance, Assessment and Management), Center for Warehouse and
Logistics Service (CWLS). The CWLS Systems Administrator uploaded the electronic
files into SSA’s Property Accountability System.21 Although Dell provided the electronic
files, the field locations did not verify these files with SSA’s Property Accountability
System. Based on Agency policy, Dell workstations potentially will not be inventoried
until SSA conducts its annual reviews during a 3-year cycle.




16
     The last call order under the Dell BPA was dated September 2005.
17
  Cycle 2 Phase 2 Workstation Replacement Procedures dated January 23, 2006, includes i.e.,
procedures for order status, installation/drop ship, delivery mistakes on shipment of equipment;
workstation setup, disk wiping old workstations, excessing equipment, imaging, warranty, and contact
and reference information.
18
  OTSO’s Division of National Network Services and Applications, Centralized Customer Services
Branch commonly referred to as "The Action Center," provides a common communication point between
the OTSO Divisions and all SSA components world-wide.
19
 AIMS, MRM, Chapter 04 PM, Instruction No. 04, Physical Inventory of Personal Property dated
December 11, 1998.
20
  SSA’s Property Accountable Officer establishes schedules for the annual physical inventory of
accountable personal property including IT and items defined as sensitive located throughout the Agency.
21
   SSA implemented the Sunflower Assets System in March 2003. Prior to that time, the Dell inventory
lists were uploaded to SSA’s Property Accountability System.
Page 6 - The Commissioner
We believe the performance of an inventory count upon the receipt of goods, and
comparing the inventory to the Agency’s accounting systems provides additional
controls to ensure physical assets exist and reconcile to accounting records.

CONCLUSION AND RECOMMENDATIONS
SSA had a process to provide oversight of the three Dell BPAs issued under the
General Services Administration’s Multiple Award Schedule Contract GS-35-F-4076D.
However, there are opportunities for SSA to improve its oversight to help ensure
contracted goods are received and reconciled to the Agency’s accounting records.

We recommend SSA continue its efforts to revise policies and procedures to address
shipping and receiving of IT equipment that includes a requirement to verify that all IT
equipment ordered under a BPA or contract has been received and entered into the
Agency’s Property Management System.

AGENCY COMMENTS

SSA agreed with our recommendation. The Agency also provided a technical comment
that was incorporated into our final report. The text of SSA’s comments is included in
Appendix D.




                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Contracting and Project Officer Responsibilities
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
AIMS       Administrative Instructions Manual System
BPA        Blanket Purchase Agreement
CO         Contracting Officer
CWLS       Center for Warehouse and Logistic Services
DHHS       Department of Health and Human Services
DDPMS      Distributed Data Processing Management Staff
FY         Fiscal Year
GSA        General Services Administration
Handbook   DHHS’ Project Officers’ Contracting Handbook
HQ         Headquarters
IT         Information Technology
MRM        Materiel Resources Manual
OAG        Office of Acquisition and Grants
OMB        Office of Management and Budget
OPLM       Office of Publications and Logistics Management
OTSO       Office of Telecommunications and Systems Operations
PM         Property Management
PO/APO     Project Officer/Alternate Project Officer
SSA        Social Security Administration
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

    •   Reviewed pertinent sections of Social Security Administration’s (SSA) policies
        and procedures as well as other relevant Federal laws and regulations.

    •   Reviewed relevant Office of Management and Budget Circulars; National
        Archives and Record Administration General Records Schedules; and U.S.
        Department of Health and Human Services, Project Officers’ Contracting
        Handbook sections.

    •   Interviewed SSA’s Office of Acquisition and Grants staff to gain an understanding
        of the Blanket Purchase Agreement (BPA) process.

    •   Obtained and reviewed the three Dell workstation, peripheral equipment, and
        installation and supports services BPAs and modifications.

    •   Interviewed staff in the Office of Telecommunications and Systems Operations
        (OTSO).

    •   Interviewed staff from the Office of Publications and Logistics Management,
        Center for Warehouse and Logistic Services and Office of Property Management;
        and Regional and Field Offices to gain an understanding of the shipping and
        receiving of Information Technology equipment and physical inventory.1

    •   Tested and verified SSA’s Headquarters shipping and receiving practices.

    •   Requested and received a list of 228 call orders issued under the 3 BPAs. We
        selected the largest call order for each BPA. For the remaining 225 call orders,
        we randomly selected 50 for review. For each call order, we selected and
        reviewed the first invoice and associated waybill.2 We compared SSA site codes,
        quantity of equipment ordered and delivered, delivery dates, delivery receipt
        signatures, and amount of equipment charged.
    •   Verified that new Hewlett Packard BPA procedures were posted on OTSO’s
        website.
1
 Field locations contacted included: Boston, California, New York and Philadelphia Regional Offices,
Philadelphia Telecommunications Service Center, Northeastern Program Service Center, and Virginia
Disability Determination Services.
2
 Waybill is a document prepared by the carrier for a shipment of goods that contained the details of the
shipment, route, and charges. The waybills were only available for one BPA SS00-04-40024.


                                                   B-1
We did not physically inspect computers and workstations to determine whether the
technical specifications as outlined in the three BPAs were met. Some BPA documents
may not have been maintained for all BPAs and therefore could not be reviewed.3 The
availability of these documents did not impact the review objective. We did not review
the Office of Acquisition and Grants internal controls.

The entities audited were the Office of Acquisitions and Grants and the Office of
Publications and Logistics Management under the Office of Budget, Finance and
Management and OTSO under the Office of Systems. We performed our audit from
November 2005 through April 2006 in Baltimore, Maryland in accordance with generally
accepted government auditing standards.




3
 Documents reviewed for BPAs 0440-01-42005 and 0440-02-42023 included BPA, modifications, call
orders and invoices. Dell waybills were only available for BPA SS00-04-40024.




                                               B-2
                                                                       Appendix C

Contracting and Project Officer Responsibilities
During the pre-solicitation phase, the Project Officer (PO) had the lead and the
Contracting Officer (CO) operated in an advisory capacity. Then in the solicitation and
evaluation and award phases the lead shifted to the CO, with the PO acting largely as
an advisor. In the post-award phase, the PO, (acting as the CO’s authorized
representative, within the authority limits designated by the CO), assumed lead
responsibility for some functions, and the CO for others.
PRESOLICITATION PHASE                          LEAD       SUPPORT

      MARKET RESEARCH                          PO            CO
      IDENTIFY REQUIREMENTS                    PO            CO
      PLANNING SCHEDULE                             CO            PO
      STATEMENT OF WORK                        PO            CO
      TECHNICAL EVALUATION CRITERIA            PO            CO
      SPECIAL APPROVALS                        PO            CO
      PREPARE SSA-393                          PO            CO

SOLICITATION PHASE

      SYNOPSIS                                 CO            PO
      GENERATE SOLICITATION MAILING LIST       CO            PO
      PREPARE SOLICITATION                     CO            PO
      RECEIPT OF OFFERS                        CO            PO

EVALUATION & AWARD PHASE

      TECHNICAL EVALUATION                     PO            CO
      BUSINESS EVALUATION                      CO            PO
      DISCUSSIONS (IF REQUIRED)                CO            PO
      CONTRACT PREPARATION & AWARD             CO            PO
      DEBRIEFING                               CO            PO

POSTAWARD PHASE

      MONITORING TECHNICAL PERFORMANCE         PO            CO
      REVIEWING PROGRESS REPORTS               PO            CO
      REVIEWING FINANCIAL REPORTS              PO            CO
      INSPECTION AND ACCEPTANCE                PO            CO
      CONTRACT ADMINISTRATION                  CO            PO
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM                                                                      0609-0011263

Date:      September 14, 2006                                                   Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Oversight of the Dell Workstation Blanket Purchase Agreements under GSA Schedule Contract
           GS-35-F-4076D” (A-15-06-16073)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report are
           attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Comments




                                                      D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S OVERSIGHT OF THE
DELL WORKSTATION BLANKET PURCHASE AGREEMENTS UNDER GENERAL
SERVICES ADMINISTRATION’S SCHEDULE CONTRACT GS-35-F-4076D”
(A-15-06-16073)

Thank you for the opportunity to review and provide comments on this OIG draft report. The
report indicates that the Social Security Administration (SSA) provided adequate oversight of the
three Dell blanket purchase agreements (BPA) OIG examined. We believe the actions cited
below will further enhance our controls over receipt and recording of information technology
(IT) equipment.

Recommendation 1

Continue efforts to revise policies and procedures to address shipping and receiving of IT
equipment that includes a requirement to verify that all IT equipment ordered under a BPA or
contract has been received and entered into the Agency's Property Management System.

Comment

We agree. We are revising our Administrative Instructions Manual System (AIMS) guide
policies and procedures relating to the shipping and receiving of property, supplies and materials
to incorporate requirements ensuring that IT equipment is properly received and checked for
accuracy and completeness. We plan to release the AIMS guide revisions by October 15, 2006.

We are also developing an automated process for certifying receipt of IT equipment ordered
under a major BPA/contract. The process will provide for acknowledgement that an IT
equipment shipment has been made along with a return confirmation of receipt by the custodial
officer or designated receiving official. We plan to implement this process during the first half
of fiscal year (FY) 2007.

[In addition to the comments above, SSA provided a technical comment which has been
addressed in this report.]




                                             D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division, (410) 966-9081

   Brian Karpe, Audit Manager, Financial Audit Division, (410) 966-1029

Acknowledgments

In addition to those named above:

   Sandra E Westfall, Senior Program Analyst

   Brennan Kraje, Statistician

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-15-06-16073.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
